No. 20-28
IN THE

$>upreme q[ourt of tbe Wntteb $>tate%
PRICEWATERHOUSECOOPERS LLP,
THE RETIREMENT BENEFIT ACCUMULATION PLAN FOR
EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,
AND THE ADMINISTRATIVE COMMITTEE To THE
RETIREMENT BENEFIT ACCUMULATION PLAN FOR
EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,

Petitioners,
V.

TIMOTHY D. LAURENT AND SMEE TA SHARON,
ON BEHALF OF THEMSELVES AND ALL OTHERS
SIMILARLY SITUATED,

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 29th day of September, 2020, I caused three copies of the Reply Brief for
Petitioners to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Leon Dayan
BREDHOFF & KAISER, P.L.L.C.
805 15th Street, N.W.
Suite 1000
Washington, D. C. 20005
(202) 842-2600
ldayan@bredhoff.com

Counsel for Respondents

